United States Department of Agriculture
Office of Inspector General




Statement on Standards for Attestation
Engagements No. 16, Report on Controls
at the National Finance Center for
October 1, 2012, to July 31, 2013




                                          Audit Report 11401-0005-11
                                          September 2013
                                                 Statement on Standards for
                                               Attestation Engagements No. 16,
                                      Report on Controls at the National Finance Center
                                             for October 1, 2012, to July 31, 2013

                                                     Audit Report 11401-0005-11
What Were OIG’s
Objectives
To express an opinion on
whether (1) NFC
management’s system
description fairly presents the
systems in place during the       OIG examined specified controls at USDA’s
period, (2) system controls
were suitably designed, and       National Finance Center.
(3) the controls operated
effectively to provide
reasonable assurance that         What OIG Found
described control objectives
are achieved.                     The Department of Agriculture’s (USDA) National Finance Center
                                  (NFC) provided the Office of Inspector General (OIG) with a
                                  description of its payroll personnel and application hosting systems
What OIG Reviewed                 for the period from October 1, 2012, through July 31, 2013. NFC also
                                  provided an assertion about whether the description was fairly
OIG reviewed NFC                  presented and controls were suitably designed and operating
management’s description of       effectively to achieve control objectives specified in the description.
its payroll/personnel and         OIG performed an examination of the description and assertion in
application hosting systems       accordance with standards issued by the Comptroller General of the
for the period from               United States and relevant attestation standards issued by the
October 1, 2012, through          American Institute of Certified Public Accountants.
July 31, 2013, and whether
system controls were suitably     In our opinion, in all material respects, based on the criteria described
designed. We also tested the      in NFC’s assertion, NFC’s description fairly presents the
controls to determine if they     payroll/personnel processing and application hosting systems NFC
were operating with sufficient    designed and implemented throughout the specified period. Also, in
effectiveness to provide          our opinion, the described controls were suitably designed and
reasonable assurance that NFC     operating effectively to provide reasonable assurance that associated
achieved control objectives.      control objectives would be achieved during the period, if user entities
                                  effectively applied controls complementary to the design of NFC’s
                                  controls.
What OIG Recommends
                                  This report is not intended to be and should not be used by parties
This report does not contain
                                  other than NFC, entities using the systems during the period, and user
recommendations.
                                  entities’ independent auditors.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250


DATE:          September 27, 2013

AUDIT
NUMBER:        11401-0005-11

TO:            Jon M. Holladay
               Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathy A. Donaldson
               Audit Liaison Officer
               Management Control and Audit Team

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Statement on Standards for Attestation Engagements No. 16, Report on Controls
               at the National Finance Center for October 1, 2012, to July 31, 2013

This report presents the results of our Statement on Standards for Attestation Engagements
No. 16 examination for the Department of Agriculture’s National Finance Center (NFC). Our
examination was conducted in accordance with generally accepted government auditing
standards issued by the Comptroller General of the United States, and relevant attestation
standards established by the American Institute of Certified Public Accountants. This report
contains NFC management’s system description and assertion about whether the description is
fairly presented and controls are suitably designed and operating effectively to achieve control
objectives stated in the description throughout the period from October 1, 2012, through
July 31, 2013. Additionally, the report includes our unmodified opinion on NFC’s controls
based on the criteria described in its assertion.

Furthermore, the report does not contain recommendations. The projection of any conclusions
based on our engagement to future periods is subject to the risk that changes may alter the
validity of such conclusions. This report is intended solely for NFC, as well as user entities of
NFC payroll/personnel and/or application hosting systems during the specified period and their
independent auditors.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
engagement.

This report contains publicly available information and will be posted to our website
http://www.usda.gov/oig in the near future.
Table of Contents

Independent Service Auditor’s Report ..................................................................1
Abbreviations ...........................................................................................................4
Exhibit A: National Finance Center - Management’s Assertion ........................5
Exhibit B: National Finance Center - Management’s System Description ........7
Exhibit C: Independent Service Auditor’s Description of Tests of the National
Finance Center Controls .......................................................................................29
Independent Service Auditor’s Report
To:     Jon M. Holladay
        Chief Financial Officer
        Office of the Chief Financial Officer

Scope
We have examined the Department of Agriculture’s National Finance Center’s (NFC) description
of its payroll/personnel and application hosting systems throughout the period from
October 1, 2012, to July 31, 2013, included as exhibit B, and the suitability of the design and
operating effectiveness of controls to achieve the related control objectives stated in the
description. The description indicates that certain control objectives specified in the description
can be achieved only if complementary user entity controls are suitably designed and operating
effectively, along with related controls at NFC. We have not evaluated the suitability of the
design or operating effectiveness of such complementary user entity controls.

NFC used subservice organizations to help support general controls related to payroll/personnel
processing and application hosting. The description in exhibit B includes only the controls and
related control objectives of NFC and excludes the control objectives and related controls of the
specified subservice organizations. Our examination did not extend to controls at the subservice
organizations specified in the NFC system description.

NFC’s Responsibilities
NFC has provided an assertion, included as exhibit A, about the fair presentation of the
description and the suitability of the design and operating effectiveness of the controls to achieve
the related control objectives stated in the description. NFC is responsible for preparing the
description and for the assertion, including the completeness, accuracy, and method of
presentation of the description and the assertion; providing the services covered by the
description; specifying the control objectives and stating them in the description; identifying the
risks that threaten the achievement of the control objectives; selecting the criteria; and designing,
implementing, and documenting controls to achieve the related control objectives stated in the
description.

Office of Inspector General’s Responsibilities
Our responsibility is to express an opinion on the fairness of the presentation of the description
and on the suitability of the design and operating effectiveness of the controls to achieve the
control objectives stated in the description, based on our examination. We conducted our
examination in accordance with generally accepted government auditing standards issued by the
Comptroller General of the United States, and attestation standards established by the American
Institute of Certified Public Accountants. Those standards require that we plan and perform our
examination to obtain reasonable assurance about whether, in all material respects, the description
is fairly presented and the controls were suitably designed and operating effectively to achieve the
related control objectives stated in the description throughout the period from October 1, 2012, to
July 31, 2013.


                                                                       REPORT 11401-0005-11        1
An examination of a description of a service organization’s systems and the suitability of the
design and operating effectiveness of the service organization’s controls to achieve the related
control objectives stated in the description involves performing procedures to obtain evidence
about the fairness of the presentation of the description and the suitability of the design and
operating effectiveness of those controls to achieve the related control objectives stated in the
description. Our procedures included assessing the risks that the description is not fairly
presented and that the controls were not suitably designed or operating effectively to achieve the
related control objectives stated in the description. Our procedures also included testing the
operating effectiveness of those controls that we consider necessary to provide reasonable
assurance that the related control objectives stated in the description were achieved. An
examination engagement of this type also includes evaluating the overall presentation of the
description and the suitability of the control objectives stated therein, and the suitability of the
criteria specified by the service organization and described in management’s assertion in
exhibit A of this report. We believe that the evidence we obtained is sufficient and appropriate to
provide a reasonable basis for our opinion.

Inherent Limitations
Because of their nature, controls at a service organization may not prevent, or detect and correct,
all errors or omissions in processing or reporting transactions associated with NFC
payroll/personnel and application hosting systems. Also, the projection to the future of any
evaluation of the fairness of the presentation of the description, or conclusions about the
suitability of the design or operating effectiveness of the controls to achieve the related control
objectives, is subject to the risk that controls at a service organization may become inadequate or
fail.

Opinion
In our opinion, in all material respects, based on the criteria described in NFC’s assertion in
exhibit A:

•      The description fairly presents the NFC payroll/personnel and application hosting systems
       that were designed and implemented throughout the period from October 1, 2012, to
       July 31, 2013.

•      The controls related to the control objectives stated in the description were suitably
       designed to provide reasonable assurance that the control objectives would be achieved if
       the controls operated effectively throughout the period from October 1, 2012, to
       July 31, 2013, and user entities applied the complementary user entity controls
       contemplated in the design of NFC’s controls throughout the period from October 1, 2012,
       to July 31, 2013.

•      The controls we tested, which together with the complementary user entity controls
       referred to in the scope paragraph of this report, if operating effectively, were those NFC
       controls necessary to provide reasonable assurance that the control objectives stated in the
       description were achieved, operated effectively throughout the period from
       October 1, 2012, to July 31, 2013.



2    REPORT 11401-0005-11
Description of Tests of Controls
The specific controls tested and the nature, timing, and results of those tests are included in
exhibit C.

Restricted Use
This report, including the description of tests of controls and results thereof in exhibit C, is
intended solely for the information and use of NFC, user entities of NFC payroll/personnel and/or
application hosting systems during some or all of the period from October 1, 2012, to
July 31, 2013, and the independent auditors of such user entities, who have a sufficient
understanding to consider it, along with other information including information about controls
implemented by user entities themselves, when assessing the risks of material misstatements of
user entities’ financial statements. This report is not intended to be and should not be used by
anyone other than these specified parties.




Gil H. Harden
Assistant Inspector General for Audit

September 26, 2013

Washington, D.C.




                                                                       REPORT 11401-0005-11       3
Abbreviations

NFC ................. National Finance Center
OIG .................. Office of the Inspector General
USDA ............. Department of Agriculture




4     REPORT 11401-0005-11
The subsequent sections of the report exhibit A (pages 5
and 6), exhibit B (pages 7 through 28), and exhibit C
(pages 29 through 55) are not being publicly released due
to the sensitive security content.
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
